CERTIFICATE OF COMPLIANCE
No. 19-807

BANK MELLI,
Petitioner,

vs.
MICHAEL BENNETT, et al.,

Respondents.

As required by Supreme Court Rule 33.1(h), I certify that the joint brief in
opposition to petition for a writ of certiorari contains 8,958 words, excluding the parts
of the brief that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

s/Nikolina Gurfinkel
Nikolina Gurfinkel
Sworn to on this 26th day of
February, 2020

